CERTIFICATE OF SERVICE
NO. TBD
Zhiheng Sheng
Petitioner(s)
v.
Daniel Michael Snyder, as Executor of the Estate of James P. Snyder
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the ZHIHENG
SHENG PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
Albert Caproni III
Cohen & Caproni, LLC
750 Hammond Drive, Building 7, Suite 200
Atlanta, GA 30328
(404) 252-8080
acaproni@cohenandcaproni.com
Counsel for Daniel Michael Snyder,
as Executor of the Estate of James P. Snyder

Louis G. McBryan
McBryan, LLC
6849 Peachtree Dunwoody Road
Building B-3, Suite 100
Atlanta, GA 30328
(678) 733-9322
lmcbryan@mcbryanlaw.com
Counsel for Daniel Michael Snyder,
as Executor of the Estate of James P. Snyder

Lucas DeDeus

August 7, 2020
SCP Tracking: Evan Parker-300 Lenora St., Suite 900-Cover White

